Case: 19-3438

Document: 44-1

Page: 1

Date Filed: 05/22/2020

BLD-199
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 19-3438

MICHAEL ROBINSON,
Appellant
v.
GEISINGER HOSPITAL; DONALD ZYCOSKI; DAWN FAUST;
NORTHUMBERLAND COUNTY; NORTHUMBERLAND COUNTY
BEHAVIORAL HEALTH; GEISINGER MEDICAL CENTER; ANTHONY
MATULEWICZ; DEGG STARK; MAUREEN TROUTMAN; DAVID FEINBERG;
SHAMOKIN POLICE DEPT; ROBERT SHLABY; SHAMOKIN CITY;
NORTHUMBERLAND COURT SYSTEM; NORTHUMBERLAND TAX OFFICE;
NORTHUMBERLAND BOARD OF ELECTIONS; NORTHUMBERLAND
CHILDREN AND YOUTH; NORTHUMBERLAND SPECIAL CONFLICTS;
NORTHUMBERLAND DA OFFICE; NORTHUMBERLAND MENTAL HEALTH;
NORTHUMBERLAND PUBLIC DEFENDERS; NORTHUMBERLAND
DOMESTICS; SARA RODOMSKI; STACEY RODOMSKI; BRITTANY RODOMSKI;
LAURA TROUTMAN; AQUA; MAYOR JOHN BROWN; JOHN BROWN, JR.;
COUNCILMAN RHODES; MARC LIEBERMAN; SAGE, COAL TOWNSHIP
POLICE OFFICER; WILLIE OLLIE MARTIN, SR.; DAN MCGRAW; GENEE
SHAFER; JOSEPH LESCHINSKI; VINCENT ROVITO; RICHARD BOZZA; NICOLE
BOZZA; RICHARD SLABY; BRUCE ROGERS; FRANK KONOPKA; OFFICER
PRIMERANO; SCOTT WEAVER, SHAMOKIN POLICE DEPARTMENT; CHIEF
TOBIAS; SHAMOKIN CITY COUNCIL; AMANDA MILLER,
NORTHUMBERLAND CHILDREN AND YOUTH; VINNY CLAUSI, EX COUNTY
COMM.; SCOTT ROUGHTON; MALOURI, SHAMOKIN POLICE DEPARTMENT;
SIKO, SHAMOKIN POLICE DEPARTMENT; JUDGE ROSINI; JUDGE DIEHL;
JUDGE JONES; JUDGE COLE; JUDGE WILLIAMS, JR.

Submitted for Possible Dismissal Pursuant to 28 U.S.C. § 1915(e)(2)(B) or
Summary Action Pursuant to Third Circuit LAR 27.4 and I.O.P. 10.6
May 14, 2020

Case: 19-3438

Document: 44-1

Page: 2

Date Filed: 05/22/2020

Before: AMBRO, GREENAWAY, JR. and BIBAS, Circuit Judges

JUDGMENT

This cause came to be considered on the record from the United States District
Court for the Middle District of Pennsylvania and was submitted for possible dismissal
pursuant to 28 U.S.C. § 1915(e)(2)(B) and for possible summary action pursuant to Third
Circuit LAR 27.4 and I.O.P. 10.6 on May 14, 2020. On consideration whereof, it is now
hereby
ORDERED and ADJUDGED by this Court that the judgment of the District Court
entered October 3, 2019, be and the same is hereby affirmed. All of the above in
accordance with the opinion of this Court.
ATTEST:
s/ Patricia S. Dodszuweit
Clerk
DATED:

May 22, 2020

Case: 19-3438

Document: 43

Page: 1

Date Filed: 05/22/2020

NOT PRECEDENTIAL

BLD-199

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 19-3438

MICHAEL ROBINSON,
Appellant
v.
GEISINGER HOSPITAL; DONALD ZYCOSKI; DAWN FAUST;
NORTHUMBERLAND COUNTY; NORTHUMBERLAND COUNTY
BEHAVIORAL HEALTH; GEISINGER MEDICAL CENTER; ANTHONY
MATULEWICZ; DEGG STARK; MAUREEN TROUTMAN; DAVID FEINBERG;
SHAMOKIN POLICE DEPT; ROBERT SHLABY; SHAMOKIN CITY;
NORTHUMBERLAND COURT SYSTEM; NORTHUMBERLAND TAX OFFICE;
NORTHUMBERLAND BOARD OF ELECTIONS; NORTHUMBERLAND
CHILDREN AND YOUTH; NORTHUMBERLAND SPECIAL CONFLICTS;
NORTHUMBERLAND DA OFFICE; NORTHUMBERLAND MENTAL HEALTH;
NORTHUMBERLAND PUBLIC DEFENDERS; NORTHUMBERLAND
DOMESTICS; SARA RODOMSKI; STACEY RODOMSKI; BRITTANY RODOMSKI;
LAURA TROUTMAN; AQUA; MAYOR JOHN BROWN; JOHN BROWN, JR.;
COUNCILMAN RHODES; MARC LIEBERMAN; SAGE, COAL TOWNSHIP
POLICE OFFICER; WILLIE OLLIE MARTIN, SR.; DAN MCGRAW; GENEE
SHAFER; JOSEPH LESCHINSKI; VINCENT ROVITO; RICHARD BOZZA; NICOLE
BOZZA; RICHARD SLABY; BRUCE ROGERS; FRANK KONOPKA; OFFICER
PRIMERANO; SCOTT WEAVER, SHAMOKIN POLICE DEPARTMENT; CHIEF
TOBIAS; SHAMOKIN CITY COUNCIL; AMANDA MILLER,
NORTHUMBERLAND CHILDREN AND YOUTH; VINNY CLAUSI, EX COUNTY
COMM.; SCOTT ROUGHTON; MALOURI, SHAMOKIN POLICE DEPARTMENT;
SIKO, SHAMOKIN POLICE DEPARTMENT; JUDGE ROSINI; JUDGE DIEHL;
JUDGE JONES; JUDGE COLE; JUDGE WILLIAMS, JR.

On Appeal from the United States District Court
for the Middle District of Pennsylvania
(D.C. Civil No. 4-18-cv-00989)

Case: 19-3438

Document: 43

Page: 2

Date Filed: 05/22/2020

District Judge: Honorable Matthew W. Brann

Submitted for Possible Dismissal Pursuant to 28 U.S.C. § 1915(e)(2)(B) or
Summary Action Pursuant to Third Circuit LAR 27.4 and I.O.P. 10.6
May 14, 2020
Before: AMBRO, GREENAWAY, JR. and BIBAS, Circuit Judges
(Opinion filed: May 22, 2020)

OPINION*

PER CURIAM
Michael Robinson appeals from the order of the District Court dismissing his
complaint for failure to state a claim. We will affirm.
I.
Robinson is a former candidate for mayor of Shamokin, Pennsylvania. In this case,
which is one of several related actions that he has filed,1 Robinson filed suit under 42
U.S.C. § 1983 and state law against an entity he identified as Geisinger Hospital.
Robinson alleged that a Geisinger employee improperly accessed his phone while he was
involuntarily committed for psychiatric treatment. Following various orders and
additional filings, a Magistrate Judge ultimately allowed Robinson to file a Third

* This disposition is not an opinion of the full Court and pursuant to I.O.P. 5.7 does not
constitute binding precedent.
i

See M.D. Pa. Civ. Nos. 4-17-cv-1321, 4-17-cv-1322 & 4-17-cv-1416. The District
2

Case: 19-3438

Document: 43

Page: 3

Date Filed: 05/22/2020

Amended Complaint.
In that complaint, Robinson named over 60 defendants and alleged a wide-ranging
conspiracy to harm him in retaliation for his mayoral candidacy, during which he claims
to have uncovered evidence of criminal activity. Robinson alleged that defendants, inter
alia, obtained his involuntary commitment, prosecuted him (successfully) for harassing
his own lawyer and his mayoral opponent, refused to investigate his complaint that his
opponent accused him of pedophilia, caused him to lose custody of his children,
wrongfully ticketed his car for parking violations, and planned to murder him. Among
the forms of relief he requested were the referral of criminal charges to state and federal
Attorneys General and an order appointing Robinson as a “special RICO investigator/
attorney” to investigate defendants’ alleged pension fraud and other matters.
The Magistrate Judge screened Robinson’s complaint under 28 U.S.C. §
1915(e)(2)(B) and recommended that the District Court dismiss Robinson’s federal
claims for failure to state a claim and decline to exercise supplemental jurisdiction over
his state-law claims. The Magistrate Judge also recommended that the District Court
dismiss Robinson’s federal claims with prejudice and without further leave to amend on
the ground that further amendment would be futile. In addition, the Magistrate Judge
recommended denying some 30 motions that Robinson had filed seeking restraining
orders, the institution of criminal charges, and other forms of relief.

Court dismissed those actions, but Robinson did not appeal.
3

Case: 19-3438

Document: 43

Page: 4

Date Filed: 05/22/2020

Robinson filed objections but did not raise any specific challenge to the Magistrate
Judge’s analysis. Over those objections, the District Court adopted the Magistrate
Judge’s recommendation, dismissed Robinson’s complaint, and denied his pending
motions. Robinson appeals.2
II.

We will affirm largely for the reasons explained by the Magistrate Judge. In brief,
Robinson raised no specific allegations regarding most of the defendants and his largely
conclusory allegations against others fail to state a federal claim.
Robinson’s only specific allegation that might conceivably have supported such a
claim is his allegation that a Municipal Court clerk “forged” a judge’s signature on a
November 2018 warrant for non-payment of fines and that, as a result, the judge

2 We have jurisdiction under 28 U.S.C. § 1291. We typically review de novo the
dismissal of a complaint for failure to state a claim. See Fantone v. Latini. 780 F.3d 184,
186 (3d Cir. 2015); Allah v. Seiverling. 229 F.3d 220, 223 (3d Cir. 2000). We do so in
this case even though Robinson did not file meaningful objections to the Magistrate
Judge’s recommendation because the Magistrate Judge’s report did not warn Robinson
that his failure to object could subject him to plain-error review. See EEOC v. City of
Long Branch, 866 F.3d 93, 99-100 (3d Cir. 2017) (citing, inter alia, Leyva v. Williams,
504 F.3d 357, 363-64 (3d Cir. 2007)). To state a claim, the complaint must contain
“sufficient factual matter; accepted as true; to state a claim to relief that is plausible on
[its] face.” Fantone. 780 F.3d at 193 (quotation marks omitted). We review for abuse of
discretion the District Court’s dismissal without leave to amend, see Shifflett v.
Korszniak. 934 F.3d 356, 364 (3d Cir. 2019), and its decision not to exercise
supplemental jurisdiction, see Kach v. Hose. 589 F.3d 626, 634 (3d Cir. 2009). In
addition to filing his notice of appeal, Robinson filed with the District Court motions that
could be construed as ones for reconsideration, which the District Court has denied.
Those rulings are not before us because Robinson has not challenged them by filing a
new or amended notice of appeal. See Fed. R. App. 4(a)(4)(B)(ii).
4

Case: 19-3438

Document: 43

Page: 5

Date Filed: 05/22/2020

“vacated” the warrant. (ECF No. 59 at 7, 11.) As the Magistrate Judge explained,
however, that allegation does not state a Fourth Amendment claim because Robinson
does not allege that he was arrested or otherwise seized pursuant to that warrant. See
Andrews v. Scuilli. 853 F.3d 690, 697 (3d Cir. 2017). Nor did Robinson allege sufficient
detail regarding this incident, or any other, to state a plausible federal claim.
We also see no basis to disturb the District Court’s conclusion that any further
amendment of Robinson’s complaint would have been futile. Robinson’s numerous
filings on appeal do not suggest otherwise and, to the contrary, tend to confirm that
conclusion. Finally, because the District Court properly dismissed all claims over which
it had original jurisdiction, the District Court acted within its discretion in declining to
exercise supplemental jurisdiction over Robinson’s state-law claims. See Kach. 589 F.3d
at 650 (citing, inter alia, 28 U.S.C. § 1367(c)(3)). In that regard, we construe the District
Court’s dismissal of those claims as one without prejudice. See id.
III.
For these reasons, we will affirm the judgment of the District Court. The motion
of appellees Geisinger Hospital, et al., for leave to file a reply is granted in part and
denied in part.3 All other pending motions are denied.

3 These appellees seek leave to file a surreply in opposition to Robinson’s document titled
“brief-motion-order,” in which he requests an order directing defendants not to contact
him. Appellees do so in order to advise us that Robinson has sent them documents that
could be deemed threatening, and they further request an order directing Robinson to
“cease and desist such communications.” The parties’ filings do not reveal the need for
5

Case: 19-3438

Document: 43

Page: 6

Date Filed: 05/22/2020

such relief at this time, and appellees’ motion is denied to that extent. Appellees’ motion
is granted, however, to the extent that they seek leave to file their surreply.
6

Case 4:18-cv-00989-MWB Document 98 Filed 08/07/19 Page 1 of 23

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF PENNSYLVANIA
MICHAEL ROBINSON,
Plaintiff

)

CIVIL ACTION NO. 4:18-CV-989

)

)
v.

(BRANN, D.J.)

)

)
GEISINGER HOSPITAL, et al.,
Defendants

(ARBUCKLE, M.J.)

)
)

REPORT & RECOMMENDATION
On May 9, 2018, Plaintiff Michael Robinson initiated this pro se civil rights
complaint. (Doc. 1). Along with his Complaint, Plaintiff filed a Motion seeking
leave to proceed in forma pauperis. (Doc. 2). Plaintiffs claims arise out of
allegedly retaliatory actions undertaken by certain individuals in his Community
after Plaintiff unsuccessfully ran for Mayor in Shamokin, Pennsylvania in 2016.
After his Complaint was screened (Doc. 7), amended (Doc. 11), and served
on the original nine (9) Defendants (Doc. 12), Plaintiff filed several other
“Complaints” and “Supplements” such that the Court, and the named Defendants,
could not ascertain which document or combination of documents Plaintiff
intended to be his Complaint. In the interests of judicial efficiency, the Court
issued an Order directing Plaintiff to file a Third Amended Complaint. (Doc. 52).
In that Order, Plaintiff was advised that:
this third amended complaint must be complete in all respects; it must
be a new pleading that complies with the requirements of the Federal
Rules of Civil Procedure which stands by itself without reference to
any complaint or supplement that has already been filed. The third
Page 1 of23

Case 4:18-cv-00989-MWB Document 98 Filed 08/07/19 Page 2 of 23

amended complaint will completely replace all the complaints and
supplements already filed. Once the third amended complaint is filed,
the other complaints and supplements will have no role in the future
of this case.
Plaintiff is also advised that, after his third amended complaint is
filed, he will not be permitted to file any other amended complaints or
supplements without seeking leave of court pursuant to Fed. R. Civ. P.
15 and Local Rule 15.1. If, after filing his third amended complaint,
Plaintiff attempts to file further amendment without leave of court,
these documents will be stricken from the record.
(Doc. 52).
On July 16, 2019, Plaintiff filed his Third Amended Complaint. In the Third
Amended Complaint, Plaintiff named the following fifty-six Defendants (listed in
alphabetical order by last name):
(1)

Aqua (Plaintiff s water company)

(2)

Nicole Bozza (municipal court clerk)

(3)

Richard Bozza

(4)

John Brown (Mayor of Shamokin)

(5)

John Brown, Jr.

(6)

Vinny Clausi (Former County Commissioner, Northumberland Cty.)

(7)

William C. Cole (Magisterial District Judge, Northumberland Cty.)

(8)

Michael Diehl (Magisterial District Judge, Northumberland Cty.)

(9)

Dawn Faust

(10) David Feinberg
(11) Geisinger Hospital
(12) Geisinger Medical Center
(13) Hugh A. Jones (Common Pleas Judge, Northumberland Cty.)
(14) Frank Konopka
(15) Joseph Leschinski
Page 2 of 23

Case 4:18-cv-00989-MWB Document 98 Filed 08/07/19 Page 3 of 23

(16) Marc Lieberman
(17) Officer Malouri (no first name provided)
(18) Willie Ollie Martin, Sr.
(19) Anthony Matulewicz (District Attorney, Northumberland Cty.)
(20) Dan McGraw
(21) Amanda Miller (Northumberland CYS)
(22) Northumberland Board of Elections
(23) Northumberland County
(24) Northumberland County Behavioral Health
(25) Northumberland Court System
(26) Northumberland CYS
(27) Northumberland DA Office
(28) Northumberland Domestics
(29) Northumberland Mental Health
(30) Northumberland Public Defenders
(31) Northumberland Special Conflicts
(32) Northumberland Tax Office
(33) Officer Primerano (no first name provided)
(34) Rhodes (no first name provided)
(35) Brittany Rodomski
(36) Sarah Rodomski
(37) Stacey Rodomski
(38) Bruce Rogers
(39) Paige Rosini (Magisterial District Judge, Northumberland Cty.)
(40) Scott Roughton
(41) Vincent Rovito
(42) Officer Sage (Coal Township Police, no first name provided)
(43) Genee Shafer
(44) Shamokin City

Page 3 of 23

Case 4:18-cv-00989-MWB Document 98 Filed 08/07/19 Page 4 of 23

(45) Shamokin City Council
(46) Shamokin Police Department
(47) Robert Shlaby
(48) Officer Siko (Shamokin Police, no first name provided)
(49) Richard Slaby (City Administrator, Shamokin, PA)
(50) Degg Stark (Police Officer)
(51) Chief Tobias (no first name provided)
(52) Laura Troutman
(53) Maureen Troutman
(54) Scott Weaver (Shamokin Police)
(55) Judge Williams Jr. (no first name provided)
(56) Donald Zycoski
Because he is proceeding in forma pauperis, Plaintiff is subject to the
screening provisions in 28 U.S.C. § 1915(e). See Atamian v. Burns, 236 F. App’x
753, 755 (3d Cir. 2007) (“the screening procedures set forth in 28 U.S.C.
§ 1915(e) apply tom forma pauperis complaints filed by prisoners and non­
prisoners alike”). Under this statute, the Court is required to dismiss any action that
is frivolous or malicious, fails to state a claim upon which relief can be granted, or
seeks monetary relief against a defendant who is immune from such relief. 28
U.S.C. § 1915(e)(2)(B). See Collins v. Cundy, 603 F.2d 825, 828 (10th Cir. 1979)
(“[Tjhere is no constitutional right to the expenditure of public funds and the
valuable time of federal courts to prosecute an action which is totally without
merit.”).

Page 4 of 23

Case 4:18-cv-00989-MWB Document 98 Filed 08/07/19 Page 5 of 23

After reviewing Plaintiffs Third Amended Complaint, I conclude that it
fails to state a claim upon which relief may be granted, and that granting further
leave to amend would be both futile and inequitable given that Plaintiff has already
been given several opportunities to file amended pleadings. I also note for the
benefit of the Court that Plaintiff has asserted claims against several of these
Defendants in other cases—all of which have been dismissed—related to the
actions arising out of Plaintiff s failed attempt to run for the office of Mayor of
Shamokin, Pennsylvania. See Robinson v. Northumberland CYS, 4:17-CV-1321
(M.D. Pa.) (naming Defendants Northumberland County CYS, Amanda Miller,
Sara Radomski and Stacey Radomski); Robinson v. Milbrand, 4:17-CV-1322
(M.D. Pa.) (naming Defendants Dan McGraw, John Brown, Robert M. Slaby,
Frank Konopka, and Joey Leschinskie); Robinson v. Leschinski, 4:17-CV-1416
(M.D. Pa.) (naming Defendants Joey Leschinski, Anthony Metulweciz, and Degg
Stark). Accordingly, IT IS RECOMMENDED that Plaintiffs claims against all
Defendants in the Third Amended Complaint be DISMISSED without further
leave to amend.

Page 5 of 23

Case 4:18-cv-00989-MWB Document 98 Filed 08/07/19 Page 6 of 23

I.

RELEVANT BACKGROUND AND PROCEDURAL HISTORY
According to Plaintiffs Third Amended Complaint, in 2016, Plaintiff

entered the Shamokin Pennsylvania mayoral race. One of his opponents was
Defendant Leshinskie. (Doc. 11, f 8). Plaintiff contends that, during the election,
Defendant Leshinskie spread rumors that Plaintiff was a pedofile [sic]. (Doc. 11, f
8); (Doc. 59, U 24). Plaintiff alleges that asked the Shamokin District Attorneys
Office to press charges, and they declined. (Doc. 11, f 8).
On an unspecified date, Plaintiff left a “vulgar message” on Defendant
Leshinski’s phone. (Doc. 59, ^[ 24). The State Court docket lists the “offense date
as February 1, 2017. Commonwealth v. Robinson, CP-49-CR-0000912-2017 (C.P.
Northumberland Cty.). Plaintiff alleges that, based on this “vulgar message” he
was charged with harassment on June 13, 2017. (Doc. 59,

24). The State Court

docket shows that, on June 13, 2017, Plaintiff was charged with two counts of
harassment.

Commonwealth

v.

Robinson,

CP-49-CR-0000912-2017

(C.P.

Northumberland Cty.).

For the benefit of the parties and this Court, this summary includes information
that was written in Plaintiff s First Amended Complaint, that was excluded from
his Third Amended Complaint. This information is only offered as background and
has not been considered for any other purpose in reviewing merits of Plaintiffs
Third Amended Complaint. Plaintiff was advised that once he filed a Third
Amended Complaint, it would “completely replace all complaints and supplements
already filed,” and that the previously filed complaints and supplements would
have no role in the future of this action. (Doc. 52).
Page 6 of 23

Case 4:18-cv-00989-MWB Document 98 Filed 08/07/19 Page 7 of 23

On June 20, 2017, Plaintiff alleges that Defendant Clausi threatened him
with violence. (Doc. 11,

11). Plaintiff called the police station and was instructed

to come in the next day to file a report. Id. When Plaintiff arrived at the police
station, he was informed that mental health workers were waiting to speak with
him and was told that he could either speak with them or be arrested. Id. Plaintiff
declined to speak with the mental health workers and was handcuffed to a desk
until an ambulance arrived to transport Plaintiff to the hospital for evaluation. Id.
Plaintiff alleges that Defendant Maureen Troutman—Acting Supervisor of
Northumberland

County Behavioral Health—demanded that Plaintiff be

involuntarily committed for at least three days even though a physician determined
there was no medical basis to do so. (Doc. 11,

14-15). Plaintiff alleges that he

“narrowly” avoided being involuntarily committed long-term, was given several
mental health diagnoses, lost custody of his daughters, and missed his “big 4th of
July shindig” as a result of his involuntary commitment. (Doc. 11,
II.

20-24).

LEGAL STANDARD FOR SCREENING COMPLAINTS FILED BY
LITIGANTS GRANTED LEAVE TO PROCEED IN FORMA PAUPERIS

Page 7 of 23

Case 4:18-cv-00989-MWB Document 98 Filed 08/07/19 Page 8 of 23

This Court has a statutory obligation to conduct a preliminary review of pro
se complaints brought by litigants given leave to proceed in forma pauperis.
Specifically, the Court is obliged to review the complaint in accordance with 28
U.S.C. § 1915(e)(2), which provides, in pertinent part:
(2) Notwithstanding any filing fee, or any portion thereof, that may
have been paid, the court shall dismiss the case at any time if the court
determines that (A) the allegation of poverty is untrue; or
(B) the action or appeal—
(i) is frivolous or malicious;
(ii) fails to state a claim on which relief may be granted; or
(iii) seeks monetary relief against a defendant who is
immune from such relief.
In performing this mandatory screening function, the Court applies the same
standard that is used to evaluate motions to dismiss under Rule 12(b)(6) of the
Federal Rules of Civil Procedure, which provides that a complaint should be
dismissed for “failure to state a claim upon which relief can be granted.” Fed. R.
Civ. P. 12(b)(6). The United States Court of Appeals for the Third Circuit has
observed the evolving standards governing pleading practice in the federal courts,
stating that “pleading standards have seemingly shifted from simple notice
pleading to a more heightened form of pleading, requiring a plaintiff to plead more
than the possibility of relief to survive a motion to dismiss.” Fowler v. UPMC

Page 8 of 23

Case 4:18-cv-00989-MWB Document 98 Filed 08/07/19 Page 9 of 23

Shadyside, 578 F.3d 203, 209-10 (3d Cir. 2009). “[A] complaint must do more
than allege the plaintiffs entitlement to relief.” Id. at 211. It also “has to ‘show’
such an entitlement with its facts.” Id.
To test the sufficiency of the complaint under Rule 12(b)(6), the court must
conduct the following three-step inquiry:
First, the court must “tak[e] note of the elements a plaintiff must plead
to state a claim.” Iqbal, 129 S.Ct. at 1947. Second, the court should
identify allegations that, “because they are no more than conclusions,
are not entitled to the assumption of truth.” Id. at 1950. Finally,
“where there are well-pleaded factual allegations, a court should
assume their veracity and then determine whether they plausibly give
rise to an entitlement for relief.” Id.
Santiago v. Warminster Tp., 629 F.3d 121, 130 (3d Cir. 2010).
A complaint filed by a pro se litigant is to be liberally construed and
‘“however inartfully pleaded, must be held to less stringent standards than formal
pleadings drafted by lawyers.’” Erickson v. Pardus, 551 U.S. 89, 94 (2007)
{quoting Estelle v. Gamble, 429 U.S. 97, 106 (1976)). Nevertheless, “pro se
litigants still must allege sufficient facts in their complaints to support a claim.”
Mala v. Crown Bay Marina, Inc., 704 F.3d 239, 245 (3d Cir. 2013). Thus, a wellpleaded complaint must contain more than mere legal labels and conclusions.
Rather, a pro se complaint must recite factual allegations that are enough to raise
the Plaintiff s claimed right to relief beyond the level of mere speculation, set forth
in a “short and plain” statement of a cause of action.

Page 9 of23

Case 4:18-cv-00989-MWB Document 98 Filed 08/07/19 Page 10 of 23

III.

DISCUSSION
Plaintiff has asserted the following legal claims in his Third Amended

Complaint: Civil Conspiracy, 42 U.S.C. § 1983 (against all Defendants); Forgery,
18 Pa. C. S. § 4101 (against Defendants Nicole Bozza and Richard Bozza);
Outrageous Conduct, 42 U.S.C. § 1983 (against all Defendants); Kidnapping and
False Imprisonment, 18 Pa. C. S. §§ 2901, 2903 (against all Defendants except
Nicole Bozza, Richard Bozza, and Richard Slaby); Abuse of Office and
Malfeasance, 42 U.S.C. § 1983 (against all Defendants except Geisinger Hospital);
Medical Malpractice (against Geisinger); and Intentional Infliction of Emotional
Distress (against all Defendants).
As relief, Plaintiff requests: the payment of nominal damages, the payment
of punitive damages, and reasonable attorney’s fees.
The only federal claims alleged are: civil conspiracy, outrageous conduct,
and abuse of office and malfeasance. Plaintiff alleges that each of these claims
arise under 42 U.S.C. § 1983.
A.

Plaintiff’s § 1983 Claims of “Outrageous Conduct” and “Abuse
of Office and Malfeasance”

In Count Three of his Third Amended Complaint, Plaintiff alleges a § 1983
Claim against all fifty-six (56) Defendants for Outrageous Conduct. Specifically,
Plaintiff alleges:

Page 10 of 23

Case 4:18-cv-00989-MWB Document 98 Filed 08/07/19 Page 11 of 23

35.

Not taking police reports from a certain individual can be
considered rude or unprofessional. In fact, it’s likely we
wouldn’t be here today if I’d been treated fairly initially. But I
wasn’t and it made me angry. But it wouldn’t qualify as
outrageous.

36.

I complained within the community, it really upset me because
it seemed discriminatory. I mean if I hadn’t run for mayor
would this be happening? And I started hearing stuff, stuff
about corruption, double dealing, nepotism. The alleged
corruption traced all the way to the DA’s office. In repeating
stories I’d heard I raised the ire of the defendants.

37.

It’s outrageous: they conspired to lock me up and kept me.
Even though there was not one report on file anywhere about
suicidal ideation or violence or the threat of violence or self
harm, I was committed and instructed by Metulawicz through
Maureen Troutman, and, I remember I have the keyhi [sic],
even the hospital found me no threat to anyone.

38.

Then Troutman wanted to 303 me, which is a long term
commitment of at least 90 days. There were hearings about this
and, again, Troutman touted her authority as a basis for locking
me up.

39.

Part of this occurred in front of my children; a disgrace.

40.

I lost the respect of my children. I lost my children, my
daughter whom I have raised since infancy.

41.

It’s outrageous to lock a person up illegally just because you
can.

42.

The mental and emotional anguish this has caused me is
unending. Humiliated in front of my girls, unable to tend my
properties and business, I was terrified that I could be put away
forever.

43.

It’s also outrageous to generate a forged warrant.

44.

Likewise, posting unlawful condemned notices is outrageous.
Page 11 of 23

Case 4:18-cv-00989-MWB Document 98 Filed 08/07/19 Page 12 of 23

45.

As a proximate result of these torts AND crimes, I will never be
able to trust our local government, our county government and
the mental health system.

(Doc. 59, It 35-45).
In Court five of his Third Amended Complaint, Plaintiff alleges that:
52.

In Daugherty v. Ellis, 142 W. Va. 340, 357-8 S.E. 2d 42-3 (W.
Va. 1956) the court offered this definition of malfeasance
“malfeasance is doing an act which an officer had no legal right
to do at all and that when that officer. Through ignorance,
inattention or malice, does that which they have no right to do,
at all, or acts with no authority whatsoever, or exceeds. Ignores,
or abuses their powers, they are guilty of malfeasance.”

53.

County and City employees developed a plan executed with
malice and threats of arrest.

54.

In City of Newport v. Fact Concerts, 453 U.S. 247 (1981) the
Court stated: “Punitive damages by definition are not intended
to compensate the injured party, rather to punish the tortfeasor
whose wrongful action was intentional or malicious, and to
deter him and others from similar extreme conduct...”

55.

In Owen v. City of Independence, 445 U.S. 622 (1980) the
Supreme Court stated “By creating an express federal remedy
Congress sought to “enforce provisions of the Fourteenth
Amendment against those who carry a badge of authority of
State and represent it in some capacity, whether they act in
accordance with their authority or misuse it” ... How “uniquely
amiss” it would be, therefore, if the government itself...were
permitted to disavow liability for the injury it has begotten...
Moreover, Statute 1983 was intended not only to provide
compensation to the victims of past abuses, but to serve as a
deterrent against future constitutional deprivations, as well. ...
The knowledge that a municipality will be liable for all of it’s
injurious conduct, whether committed in good faith or not,
should create an incentive for officials who may harbor doubts
about the lawfulness of their actions to err on the side of

Page 12 of 23

Case 4:18-cv-00989-MWB Document 98 Filed 08/07/19 Page 13 of 23

protecting citizens constitutional rights. Furthermore, the threat
that damages might be levied against the city may encourage
those in a policy-making position to institute internal rules and
programs designed to minimize the likelihood of unintentional
infringements on constitutional rights.”
56.

Tony Matulewicz, Degg Stark, Maureen Troutman [sic],
Shamokin Police Department with officers Pimerano, Zelinski
and Chief Tobias as well as Rick Slaby, Rick and Nicole Bozza
and Commissioner Roughton are guilty of official misconduct,
abuse of office and malfeasance.

57.

Because of their actions, everything I hold dear, my civil
liberties, my love for the City of Shamokin, my trust in local
government, my political aspirations, my livelihood, and most
importantly the loss of my children, the lack of consortium, I
am a broken man.

58.

In Pennsylvania public officials who commit misdemeanors of
the second degree can be punishable with a fine up to $5000
and a prison sentence shall not exceed 2 years, 18 Pa. Stat. and
Cons. Stat. Ann. 1101,1104.

(Doc. 59,1flf 52-58).
These claims appear to deal with: (1) Plaintiffs June 2017 involuntary
commitment, allegedly orchestrated by Defendants Maureen Troutman and
Metulawicz; and (2) a “false warrant” signed by Defendant Nicole Bozza
(municipal court clerk) in November 2018 for non-payment of fines and vacated
by Magisterial District Judge John Gembic, (Doc. 59,

16, 30).

“Section 1983 imposes civil liability upon any person who, acting under the
color of state law, deprives another individual of any rights, privileges, or
immunities secured by the Constitution or laws of the United States.” Shuman v.

Page 13 of 23

Case 4:18-cv-00989-MWB Document 98 Filed 08/07/19 Page 14 of 23

Penn Manor School Dist., 422 F.3d 141, 146 (3d Cir. 2005). “It is well settled that
§ 1983 does not confer any substantive rights, but merely ‘provides a method for
vindicating federal rights elsewhere conferred.’” Williams v. Pennsylvania Human
Relations Comm'n, 870 F.3d 294, 297 (3d Cir. 2017) (quoting Hildebrand v.
Allegheny Cty., 757 F.3d 99, 104 (3d Cir. 2014)). To establish a claim under
§ 1983, Plaintiff must establish a deprivation of a federally protected right and that
this deprivation was committed by a person acting under color of state law.
Woloszyn v. County of Lawrence, 396 F.3d 314, 319 (3d Cir. 2005). There are no §
1983 claims for “outrageous conduct” or “abuse of office and malfeasance.”
Liberally construed, Plaintiff appears to be asserting claims of false arrest
and false imprisonment under the Fourth and Fourteenth Amendments to the
United States Constitution arising out of his June 2017 involuntary commitment,
and the “bogus warrant” issued by Defendant Nicole Bozza.
1.

Plaintiffs False Arrest/False Imprisonment Claim against
Defendant Nicole Bozza Should be Dismissed

To assert a false arrest claim brought under the Fourth Amendment to the
United States Constitution claim a plaintiff must allege (1) that he was arrested,
and (2) that the arrest was made without probable cause. Dillard v. Cornick, No.
l:18-CV-70, 2018 WL 4679952, at *4 (M.D. Pa. Sept. 28, 2018); citing Andrews v.
Scuilli, 853 F.3d 690, 697 (3d Cir. 2017) (internal citation omitted). Here, Plaintiff
has failed to allege the first element of this claim. Although Plaintiff alleges a
Page 14 of 23

Case 4:18-cv-00989-MWB Document 98 Filed 08/07/19 Page 15 of 23

bench warrant was issued by Defendant Nicole Bozza, and that there was no
probable cause for the issuance of that warrant, Plaintiff does not allege that he was
ever actually arrested based on the warrant issued by Defendant Nicole Bozza.
Accordingly, it is recommended that Plaintiffs false arrest and false imprisonment
claims asserted against Defendant Nicole Bozza in Counts Three and Five of the
Third Amended Complaint be dismissed.
2.

Plaintiffs False Arrest/False Imprisonment claim against
Defendants Maureen Troutman and Metulawicz should be
dismissed

Section 302 of the Pennsylvania Mental Health Procedures Act (“MHPA”),
entitled “Involuntary emergency examination and treatment authorized by a
physician—Not to exceed one hundred twenty hours,” provides that
Emergency examination may be undertaken at a treatment facility
upon the certification of a physician stating the need for such
examination; or upon a warrant issued by the county administrator
authorizing such examination; or without a warrant upon application
by a physician or other authorized person who has personally
observed conduct showing the need for such examination.
50 P.S. § 7302(a). The same statute also explains that:
A person taken to a facility shall be examined by a physician within
two hours of arrival in order to determine if the person is severely
mentally disabled within the meaning of section 301(b) and in need of
immediate treatment. If it is determined that the person is severely
mentally disabled and in need of emergency treatment, treatment shall
be begun immediately. If the physician does not so find, or if at any
time it appears there is no longer a need for immediate treatment, the
person shall be discharged and returned to such place as he may
reasonably direct. The physician shall make a record of the

Page 15 of 23

Case 4:18-cv-00989-MWB Document 98 Filed 08/07/19 Page 16 of 23

examination and his findings. In no event shall a person be accepted
for involuntary emergency treatment if a previous application was
granted for such treatment and the new application is not based on
behavior occurring after the earlier application.
50 P.S. § 7302(b). If additional treatment is required beyond the 120 hours
provided for in 50 P.S. § 7302, the facility may seek extended involuntary
emergency treatment under 50P.S. §7303 by filing an application with the Court
of Common Pleas. Upon receipt of an application for extended involuntary
emergency treatment, an informal hearing is held before a judge or by a mental
health review officer. 50 P.S. § 7303(b) and (c).
Although Plaintiff includes more detail in his First Amended Complaint,
Plaintiffs factual allegations with respect to this claim in his Third Amended
Complaint are as follows:
37.

It’s outrageous: they conspired to lock me up and kept me.
Even though there was not one report on file anywhere about
suicidal ideation or violence or the threat of violence or self
harm, I was committed and instructed by Metulawicz through
Maureen Troutman, and, I remember I have the keyhi, even the
hospital found me no threat to anyone.

38.

Then Troutman wanted to 303 me, which is a long term
commitment of at least 90 days. There were hearings about this
and, again, Troutman touted her authority as a basis for locking
me up.

(Doc. 59, IHf 37-38).
Plaintiffs claim of false imprisonment/false arrest against Defendants
Maureen Troutman and Metulawicz should be dismissed pursuant to Rule 8 of the

Page 16 of 23

Case 4:18-cv-00989-MWB Document 98 Filed 08/07/19 Page 17 of 23

Federal Rules of Civil Procedure because Plaintiff has failed to plead enough facts
to state a cognizable claim against Defendants Maureen Troutman or Metulawicz.
“A pleading that states a claim for relief must contain ... a short and plain
statement of the claim showing that the pleader is entitled to relief.” It is wellsettled that: “[t]he Federal Rules of Civil Procedure require that a complaint
contain ‘a short and plain statement of the claim showing that the pleader is
entitled to relief,’ Fed.R.Civ.P. 8(a)(2), and that each averment be ‘concise, and
direct,’ Fed.R.Civ.P. 8(e)(1).” Scibelli v. Lebanon County, 219 F. App’x 221, 222
(3d Cir. 2007). Dismissal under Rule 8 is appropriate in “‘those cases in which the
complaint is so confused, ambiguous, vague, or otherwise unintelligible that its
true substance, if any, is well disguised.’” Tillio v. Spiess, 441 F. App’x 109, 110
(3d Cir. 2011) (quoting Simmons v. Abruzzo, 49 F.3d 83, 86 (2d Cir. 1995)).
Although Plaintiff appears to allege that Defendants Maureen Troutman (Acting
Supervisor

of

Northumberland

Behavioral

Health)

and

Metulawicz

(Northumberland County District Attorney) were involved in the 302 commitment
process, the exact nature of what occurred and the nature of the alleged misconduct
by these individuals is not clear. Accordingly, I recommend that this claim be
dismissed under Rule 8 of the Federal Rules of Civil Procedure.
3.

Plaintiffs § 1983 Claims of “Outrageous Conduct” and “Abuse
of Office and Malfeasance” should be Dismissed as to all Other
Defendants

Page 17 of 23

Case 4:18-cv-00989-MWB Document 98 Filed 08/07/19 Page 18 of 23

Plaintiffs Fourth Amendment claim is brought under 42 U.S.C. § 1983.
“Section 1983 imposes civil liability upon any person who, acting under the color
of state law, deprives another individual of any rights, privileges, or immunities
secured by the Constitution or laws of the United States.” Shuman v. Penn Manor
School Dist., 422 F.3d 141, 146 (3d Cir. 2005). Liability in a § 1983 action is
personal in nature, and to be liable, a defendant must have been personally
involved in the wrongful conduct. In other words, defendants are “liable only for
their own unconstitutional conduct.” Barkes v. First Corr. Med., Inc., 766 F.3d
307, 316 (3d Cir. 2014), rev’d on other grounds sub nom. Taylor v. Barkes, 135
S.Ct. 2042 (2015).
Plaintiff has not alleged that Defendants Aqua (Plaintiffs water company),
Richard Bozza, John Brown (Mayor of Shamokin), John Brown, Jr., Vinny Clausi
(Former County Commissioner, Northumberland Cty.), William C. Cole
(Magisterial District Judge, Northumberland Cty.), Michael Diehl (Magisterial
District Judge, Northumberland Cty.), Dawn Faust, David Feinberg, Geisinger
Hospital, Geisinger Medical Center, Hugh A. Jones (Common Pleas Judge,
Northumberland Cty.), Frank Konopka, Joseph Leschinski, Marc Lieberman,
Officer Malouri (no first name provided), Willie Ollie Martin, Sr., Dan McGraw,
Amanda Miller (Northumberland CYS), Northumberland Board of Elections,
Northumberland

County,

Northumberland

County

Page 18 of 23

Behavioral

Health,

Case 4:18-cv-00989-MWB Document 98 Filed 08/07/19 Page 19 of 23

Northumberland Court System, Northumberland CYS, Northumberland DA
Office,

Northumberland

Northumberland

Public

Domestics,
Defenders,

Northumberland
Northumberland

Mental
Special

Health,
Conflicts,

Northumberland Tax Office, Officer Primerano (no first name provided), Rhodes
(no first name provided), Brittany Rodomski, Sarah Rodomski, Stacey Rodomski,
Paige Rosini (Magisterial District Judge, Northumberland Cty.), Vincent Rovito,
Officer Sage (Coal Township Police, no first name provided), Genee Shafer,
Shamokin City, Shamokin City Council, Shamokin Police Department, Robert
Shlaby, Officer Siko (Shamokin Police, no first name provided), Degg Stark
(Police Officer), Chief Tobias (no first name provided), Laura Troutman, Scott
Weaver (Shamokin Police), Judge Williams Jr. (no first name provided), or Donald
Zycoski were involved in his June 2017 commitment or in the issuance of the
“bogus warrant.” Accordingly, it is recommended that the claims asserted against
these Defendants in Counts Three and Five of the Third Amended Complaint be
dismissed.
B.

Plaintiff’s § 1983 Claim of Conspiracy Should be Dismissed

In Count One of his Third Amended Complaint, Plaintiff alleges a claim of
civil conspiracy arising under 42 U.S.C. § 1983 against all fifty-six Defendants. To
make out a conspiracy claim under § 1983, a plaintiff must allege facts to show
that “persons acting under color of state law conspired to deprive him of a

Page 19 of 23

Case 4:18-cv-00989-MWB Document 98 Filed 08/07/19 Page 20 of 23

federally protected right.” Arneault v. O’Toole, 864 F. Supp. 2d 361, 407 (W.D.
Pa. 2012) (quoting Ridgewood Bd. Of Ed. V. N.E. ex rel. M.E., 172 F. 3d 238, 254
(3d Cir. 1999). A § 1983 conspiracy claim only arises, however, when there has
been an actual deprivation of a federal right. Arneault, 864 F. Supp. 2d at 407
(citing Perano v. Twp. OfTilden, 423 F. App’x 234, 239 (3d Cir. 2011).
For the reasons explained in Section III. A. of this Report, I have
recommended that all of Plaintiffs claims involving the deprivation of federal
rights be dismissed. Because Plaintiff has failed to allege any plausible claim
regarding the deprivation of a federal right, I recommend that his § 1983
conspiracy claim be dismissed.
C.

Plaintiff ’s State Law Claims

Plaintiffs remaining state law claims are: Forgery (Count II); Kidnapping
and False Imprisonment (Count IV); Medical Malpractice (Count VI); and
Intentional Infliction of Emotional Distress (Count VII).
Where a district court has dismissed all claims over which it had original
jurisdiction, the Court may decline to exercise supplemental jurisdiction over state
law claims. 28 U.S.C. § 1367(c)(3). Whether the Court will exercise supplemental
jurisdiction is within its discretion. Kach v. Hose, 589 F.3d 626, 650 (3d Cir.
2009). That decision should be based on “the values of judicial economy,

Page 20 of 23

Case 4:18-cv-00989-MWB Document 98 Filed 08/07/19 Page 21 of 23

convenience, fairness, and comity.” Carnegie-Mellon Univ. v. Cohill, 484 U.S.
343, 350(1988).
Ordinarily, when all federal law claims have been dismissed and only state
law claims remain, the balance of these factors indicates that these remaining
claims properly belong in state court. Id. at 350. This case is no exception.
Therefore, it is recommended that Plaintiffs state law claims be dismissed
pursuant to 28 U.S.C. § 1367(c)(3) without prejudice to his bringing these claims
in state court.
D.

Granting Further Leave to Amend is Futile

If a complaint is subject to dismissal for failure to state a claim, a district
court must permit a curative amendment unless such an amendment would be
inequitable or futile. Phillips v. County of Allegheny, 515 F.3d 224, 245 (3d Cir.
2008). Allowing Plaintiff to file a fourth amended complaint would be both futile
and inequitable in this case. Although Plaintiff has amended his complaint multiple
times, he still fails to state a claim upon which relief can be granted.
IV.

RECOMMENDATION
IT IS RECOMMENDED THAT:
(1)

Plaintiffs Third Amended Complaint (Doc. 59) be DISMISSED
pursuant to 28 U.S.C. § 1915(e)(2)(b)(ii) WITHOUT FURTHER
LEAVE TO AMEND.

Page 21 of 23

Case 4:18-cv-00989-MWB Document 98 Filed 08/07/19 Page 22 of 23

(2)

All Pending Motions in this case (Docs. 31, 55, 57, 64, 65, 68, 69, 74,
76, 78, 79, 80, 82, 83, 84, 85, 86, 87, 88, 89, 90, 91, 92, 93, 95, 96,
97) be DISMISSED as MOOT.

Date: August 7, 2019

BY THE COURT
s/William I. Arbuckle
William I. Arbuckle
U.S. Magistrate Judge

Page 22 of 23

Case 4:18-cv-00989-MWB Document 98 Filed 08/07/19 Page 23 of 23

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF PENNSYLVANIA
MICHAEL ROBINSON,
Plaintiff

)
)

)
v.

CIVIL ACTION NO. 4:18-CV-989
(BRANN, D.J.)

)

)
GEISINGER HOSPITAL, et al.,
Defendants

(ARBUCKLE, M.J.)

)
)

NOTICE OF RIGHT TO OBJECT
NOTICE IS HEREBY GIVEN that any party may obtain a review of the
Report and Recommendation pursuant to Local Rule 72.3, which provides:
Any party may object to a magistrate judge’s proposed findings,
recommendations or report addressing a motion or matter described in 28
U.S.C. § 636 (b)(1)(B) or making a recommendation for the disposition of a
prisoner case or a habeas corpus petition within fourteen (14) days after
being served with a copy thereof. Such party shall file with the clerk of
court, and serve on the magistrate judge and all parties, written objections
which shall specifically identify the portions of the proposed findings,
recommendations or report to which objection is made and the basis for such
objections. The briefing requirements set forth in Local Rule 72.2 shall
apply. A judge shall make a de novo determination of those portions of the
report or specified proposed findings or recommendations to which
objection is made and may accept, reject, or modify, in whole or in part, the
findings or recommendations made by the magistrate judge. The judge,
however, need conduct a new hearing only in his or her discretion or where
required by law, and may consider the record developed before the
magistrate judge, making his or her own determination on the basis of that
record. The judge may also receive further evidence, recall witnesses, or
recommit the matter to the magistrate judge with instructions.
Date: August 7, 2019

BY THE COURT
s/William I. Arbuckle
William I. Arbuckle
U.S. Magistrate Judge

Page 23 of 23

Case 4:18-cv-00989-MWB Document 108 Filed 10/03/19 Page 1 of 3

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF PENNSYLVANIA
MICHAEL ROBINSON,

No. 4:18-CV-00989

Plaintiff,

(Judge Brann)
(Magistrate Judge Arbuckle)

v.

GEISINGER HOSPITAL, et al.,
Defendants.
ORDER
October 3,2019
1.

On May 9, 2018, Plaintiff filed a complaint against Defendants. ECF No
1.

2.

On May 9, 2018, Plaintiff filed a Motion for Leave to Proceed in Forma
Pauperis. ECF No 2.

3.

On November 27, 2018, Magistrate Judge William I. Arbuckle issued a
screening order instructing Plaintiff to file an amended complaint. ECF
No 7. On February 6, 2019, Plaintiff filed an Amended Complaint. ECF
No 11.

4.

Plaintiff then filed several other “Complaints” and “Supplements” such
that the Court and the named Defendants could not ascertain which
document or combination of documents Plaintiff intended to be his
Complaint. On June 18, 2019, Magistrate Judge Arbuckle issued an
Order directing Plaintiff to file a Third Amended Complaint. ECF No

Case 4:18-cv-00989-MWB Document 108 Filed 10/03/19 Page 2 of 3

52. That Order advised Plaintiff that the Third Amended Complaint
would completely replace the previously filed complaints and
supplements. Id.
5.

On July 16, 2019, Plaintiff filed his Third Amended Complaint. ECF No
59.

6.

In an August 7, 2019 Report and Recommendation, Magistrate Judge
Arbuckle recommended that this Court (1) dismiss Plaintiffs Third
Amended Complaint with prejudice and (2) deny all pending motions in
this case as moot. ECF No 98.

7.

On August 9, 2019, Plaintiff filed a document styled as an objection to
the Report and Recommendation. ECF No 103. However, the document
did not provide any specific objections. See id.

8.

This Court is not required to conduct a de novo review of a magistrate
judge’s report and recommendation if no specific objections are made.
See Thomas v Duvall, 2017 WL 2928153, at *5 (MD Pa July 10, 2017),
citing Goney v Clark, 749 F2d 5, 6-7 (3d Cir 1984) (stating that a court
need not conduct a de novo review if objections are not timely or
specific because doing so “would undermine the efficiency the
magistrate system was meant to contribute to the judicial process”);
FRCP 72(b)(2) (“[A] party may serve and file specific written objections
to the proposed findings and recommendations.”) (emphasis added).

-2-

Case 4:18-cv-00989-MWB Document 108 Filed 10/03/19 Page 3 of 3

9.

For portions of a report and recommendation to which no proper
objection is made, the court should satisfy itself that “there is no clear
error on the face of the record in order to accept the recommendation.”
Thomas, 2017 WL 2928153 at *2, quoting FRCP 72 (advisory
committee notes).

10.

This Court has reviewed Magistrate Judge Arbuckle’s Report and
Recommendation and has determined that there is no clear error on the
face of the record.

11.

Therefore, IT IS HEREBY ORDERED that:
a.

Magistrate Judge Arbuckle’s Report and Recommendation, ECF
No 98, is ADOPTED;

b.

Plaintiffs Third Amended Complaint, ECF No 59, is
DISMISSED WITH PREJUDICE;

c.

All pending motions in this case (ECF Nos 31, 55, 57, 64, 65, 68,
69, 74, 76, 78, 79, 80, 82, 83, 84, 85, 86, 87, 88, 89, 90, 91, 92,
93, 95, 96, 97, 99, 101) are DENIED AS MOOT; and

d.

The Clerk of Court is directed to CLOSE the case.
BY THE COURT:

s/ Matthew W. <Brann
Matthew W. Brann
United States District Judge
-3 -

Case: 19-3438

Document: 48

Page: 1

Date Filed: 06/22/2020

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 19-3438

MICHAEL ROBINSON,
Appellant
v.
GEISINGER HOSPITAL; DONALD ZYCOSKI; DAWN FAUST;
NORTHUMBERLAND COUNTY; NORTHUMBERLAND COUNTY BEHAVIORAL
HEALTH; GEISINGER MEDICAL CENTER; ANTHONY MATULEWICZ; DEGG
STARK; MAUREEN TROUTMAN; DAVID FEINBERG; SHAMOKIN POLICE
DEPT; ROBERT SHLABY; SHAMOKIN CITY; NORTHUMBERLAND COURT
SYSTEM; NORTHUMBERLAND TAX OFFICE; NORTHUMBERLAND BOARD OF
ELECTIONS; NORTHUMBERLAND CHILDREN AND YOUTH;
NORTHUMBERLAND SPECIAL CONFLICTS; NORTHUMBERLAND DA OFFICE;
NORTHUMBERLAND MENTAL HEALTH; NORTHUMBERLAND PUBLIC
DEFENDERS; NORTHUMBERLAND DOMESTICS; SARA RODOMSKI; STACEY
RODOMSKI; BRITTANY RODOMSKI; LAURA TROUTMAN; AQUA; MAYOR
JOHN BROWN; JOHN BROWN, JR.; COUNCILMAN RHODES; MARC
LIEBERMAN; SAGE, COAL TOWNSHIP POLICE OFFICER; WILLIE OLLIE
MARTIN, SR.; DAN MCGRAW; GENEE SHAFER; JOSEPH LESCHINSKI;
VINCENT ROVITO; RICHARD BOZZA; NICOLE BOZZA; RICHARD SLABY;
BRUCE ROGERS; FRANK KONOPKA; OFFICER PRIMERANO; SCOTT
WEAVER, SHAMOKIN POLICE DEPARTMENT; CHIEF TOBIAS; SHAMOKIN
CITY COUNCIL; AMANDA MILLER, NORTHUMBERLAND CHILDREN AND
YOUTH; VINNY CLAUSI, EX COUNTY COMM.; SCOTT ROUGHTON;
MALOURI, SHAMOKIN POLICE DEPARTMENT; SIKO, SHAMOKIN POLICE
DEPARTMENT; JUDGE ROSINI; JUDGE DIEHL; JUDGE JONES; JUDGE COLE;
JUDGE WILLIAMS, JR.

On Appeal from the United States District Court
for the Middle District of Pennsylvania
(D.C. Civ. Action No. 4-18-cv-00989)
District Judge: Honorable Matthew A. Brann

Case: 19-3438

Document: 48

Page: 2

Date Filed: 06/22/2020

Present: SMITH, Chief Judge, McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, and PHIPPS, Circuit Judges.
The petition for rehearing filed by Appellant in the above-entitled case having
been submitted to the judges who participated in the decision of this Court and to all the
other available circuit judges of the circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing, and a majority of the judges of the
circuit in regular service not having voted for rehearing, the petition for rehearing by the
panel and the Court en banc is denied.

BY THE COURT,
s/Joseph A. Greenaway. Jr.
Circuit Judge
Dated: June 22, 2020
Lmr/cc: Michael Robinson
Daniel T. Brier
Suzanne P. Conaboy
Nicholas F. Kravitz
Christine E. Munion
Matthew R. Clayberger
David L. Schwalm

